Supreme Court, U.S.
FILFD

MAY 0 8 2020
No.

n-nic 7
In the

Supreme Court of the United States

VERNON LEE HAVENS, II
Petitioner
v.

CHIEF JUSTICE MAUREEN O’CONNOR,
Ohio Supreme Court;
HONORABLE STEVEN BEATHARD,
Fayette County Court of Common Pleas
Respondents

On Petition For A Writ Of Certiorari
To The U.S. Court Of Appeals
For The Sixth Circuit

PETITION FOR A WRIT OF CERTIORARI

VERNON LEE HAVENS II - PRO SE
1238 St. Rt. 38 N.E.
Washington Court House, Ohio 43160
740.620.9410 - havensfj@aol.com

RIGINAL

OFFICE OF THE CLERK

1

QUESTIONS PRESENTED

1.

Do Mireles v. Waco, Brookings v. Clunk,

and associated case law combine to grant
absolute judicial immunity to all other regulation,
Section 1983 suits, the authority of superior
Courts, and federal law based on jurisdiction
alone as implied by the Sixth Circuit’s decision?
2.

By extension, do absolute judicial

immunity, Rooker-Feldman Doctrine (relied upon
in the District Court’s decision), and 28 U.S.C.
Section 1257 unconstitutionally combine to
abridge the right to Due Process and Equal
Treatment by effectively barring access to higher
Courts for remedy to State Courts’ of last resort,
or to intermediate courts’, violations of
constitutional guarantees?

11

PARTIES TO THE PROCEEDING

Petitioner is Vernon Lee Havens II, Plaintiff
in District Court and Appellant in Circuit Court.

Respondents are Judge Steven Beathard,
Defendant in District Court, Appellee in Circuit
Court, AND,
Ohio Supreme Court Chief Justice, Maureen
O’Connor, Defendant in District Court, Appellee
in Circuit Court.

CORPORATE DISCLOSURE

Per Rules 14.1(b)(ii) and 29.6, the Petitioner
is not a corporation nor represents one.

Ill

RELATED PROCEEDINGS

Havens v. O'Connor et al, 19-3475
U.S. Court Of Appeals For The Sixth Circuit.
Judgement entered March 20, 2020
Havens v. O'Connor et al, 2:19-cv-00481
U.S. District Court / Southern District of Ohio.
Judgement entered May 15, 2019

IV

TABLE OF CONTENTS
Page
QUESTIONS PRESENTED

l

PARTIES TO THE PROCEEDING

11

CORPORATE DISCLOSURE STATEMENT

11

m

RELATED PROCEEDINGS
TABLE OF CONTENTS

1V-V111

TABLE OF AUTHORITIES

Vlll-X

PETITION FOR A WRIT OF CERTIORARI

1

OPINIONS BELOW

1

JURISDICTION

1-2

CONSTITUTION & STATUTORY
PROVISIONS
STATEMENT OF THE CASE
I. Introduction
II.

Class Of One Complaint,

,2,14a-19a
3
3
,4

III. Appeal to the U.S. Sixth Circuit Court..6

V

TABLE OF CONTENTS - Continued
Page
REASONS FOR GRANTING CERTIORARI ....7-23
I.

Do Conflicting Interpretations and

Applications of Law At Issue Undermine Judicial
Normalcy, and, the Authority and Legitimacy of
7

Superior Courts and the U.S. Congress?
A. Mireles v. Waco Predicates Absolute
Immunity Upon A Liability Suit For Damages,
But The 6th Extends It To Any Suit

7-12

B. The 6th Wrongly Predicates Absolutely
Immunity Upon Jurisdiction Alone

12-16

C. The 6th Erroneously Applies 28
U.S.C. 1441(a.) To Restrict Plaintiff Rights Under
28 U.S.C. 1441(c.) & FRCP Rule 42(a.)

16-17

D. The Lower Courts Unconstitutionally
Apply Rooker-Feldman To Suppress Violation Of
Due Process Claims

17-19

VI

TABLE OF CONTENTS
Page
E.

The Laws At Issue Converge To

Create Constitutional Deprivations.................. 19-21
F. The 6th’s Decision Set Precedent For
Absolute Judicial Autonomy From Any Other
Legal Authority, Empowering Absolute Judicial
Tyranny To Metastasize If Unchecked.

21-22

G. The 6th’s Ruling Undermines the
22

Legitimacy of the U.S. Government,
H.

This Case Is The Optimal
22,23

Case

23

II. CONCLUSION

APPENDIX A - Sixth Circuit Opinion, upholding
the District’s decision but silent on its opinion,
March 20, 2020

la-5a

Vll

TABLE OF CONTENTS
Page
APPENDIX B - District Court Order, granting
dismissal on Rooker-Feldman preclusion, May 15,
6a-13a

2019

APPENDIX C - AMENDMENT & STATUTORY
PROVISIONS

14a-19a

TABLE OF AUTHORITIES
CASES

Page

Armstrong u. Manzo,

17,20

380 U.S. 545 (1965)
Bolling v. Sharpe,

17, 23

347 U.S. 497 (1954)
Bradley v. Fisher,
80 U.S. 13 Wall., at 351(1872).

.8,14

Vlll

Brookings v. Clunk,

.7,12

389 F.3d 614, 617 (6th Cir. 2004)
15

Cameron v. Seitz,
38 F.3d 264. 271 (6th Cir. 1994)
Davis v. Burris,

14

Ariz. 220, 75 P.2d 689 (1938)
Exxon Mobil Corp. v. Saudi Basic Industries Corp.,
544 U.S. 280 (2005)
Forrester v. White,

17
9,10

484 U.S. 219 (1988)
McAlester v. Brown,

8

469 F.2d 1280 (5th Cir. 1972)
Mireles v. Waco,

7,8,9,12,13

502 U.S. 9 (1991)
Mitchell v. Forsyth,
472 U.S. 511, 525 (1985)

9,10

IX

Pierson v. Ray,

9

386 U.S. 547 1967
10

Pulliam v. Allen,
466 U.S. 522, 536-543 (1983)

14

Rankin v. Howard,

633 F.2d 844, cert den. Zeller v. Rankin, 101
S.Ct. 2020, 451 U.S. 939, 68 L.Ed 2d 326.
Rooker-Feldman Doctrine;

3,6,7,17,18,19

Rooker v. Fidelity Trust Co.,
263 U.S. 413 (1923)
District of Columbia Court of Appeals v. Feldman.
460 U.S. 462 (1983)
Stump v. Sparkman,

14

435 U.S. at 356
Van Hoven v. Buckles & Buckles,
P.L.C., 947 F.3d 889, 892 (6th Cir. 2020).

17

X

STATUTES
3,19,20,14a

lst/First Amendment
5tb/Fifth Amendment....;

3,19,14a

14tb/Fourteenth Amendment.

3,19,14a

Article III
28 U.S.C. Section 1257

22,15a
16,19,20,15a

28 U.S. Code §1367
28 U.S.C. 1441(a.)
28 U.S.C. § 1446(d)
42 U.S.C. Section 1983

14,15a
6,16,16a
16,17a
5,6,17a

RULES
FRCP Rule 42(a.)

16,18a

OTHER AUTHORITIES & MISCELLANEOUS
Heritage Foundation
https://www.heritage.org/Courts/report/

20

XI

Emory Law Journal, Volume 66, Issue 1., Ill A
https;/daw.emory.edu/elj/content/volume-66/issue-l/
comments/officer-robes-solution-expansion-quasiimmunity.html

.24

1

PETITION FOR WRIT OF CERTIORARI
Vernon Lee Havens II, respectfully petitions
for a writ of certiorari to review the judgment of
the U.S. Court of Appeals for the Sixth Circuit.
OPINIONS BELOW
The Circuit Court’s opinion (Pet. App. la-5a)
is unpublished.
The District Court’s opinion (Pet. App.
6a-13a) is unpublished.
JURISDICTION
The Sixth Circuit’s panel opinion (Pet. App.
la-5a) was filed on March 20, 2020.
This Court’s jurisdiction is timely invoked
under 28 U.S.C. § 1254(1).
The U.S. Solicitor General has been notified
that 28 U.S.C. 2403(a) may apply per R. 29.4(b).

2

The Petitioner is uninformed whether the
6th Circuit and the Southern District Courts
notified the Solicitor General that 28 U.S.C.
2403(a) may apply.

CONSTITUTION & STATUTORY PROVISIONS
The following pertinent provisions are reproduced
in (Pet. App., infra, 14a-19a).
First Amendment - Due Process
Fifth Amendment - Due Process
Fourteenth Amendment - Equal Protection
28 U.S.C. Section 1257
28 U.S.C. Section 1367
28 U.S.C. Section 1441(a.),(d.)
42 U.S.C. Section 1983
FRCP Rule 42(a.)
Judiciary Act of 1925, 43 Stat. 936 SEC. 237 (b)

3

STATEMENT OF THE CASE
I. Introduction.
Conflicting interpretations of jurisdiction,
judicial immunity, and Rooker-Feldman Preclusion,
as applied by the U.S. Sixth Circuit Court,
(hereinafter, the 6th), and the U.S. Southern
District Court of Ohio, (hereinafter, the District),
have converged with other law to effectively
create inviolate judicial autonomy in every Court,
eclipsing U.S. constitutional guarantees. While
both Courts differ from other Courts acting in
similar cases, a question of whether both Court’s
application of such law converges with a lack of
adequate remedy to State Courts’ of last resort
deprivations of due process to effectively violate
the 1st, 5th, and 14th Amendment rights to Due
Process and Equal Protection. The gulf between
the 6th’s and the U.S. Supreme Court’s,

4

(hereinafter, This Court), application of the same
law exemplifies these conflicts.
II. Class Of One Complaint
Three cases in lower Courts, with bias
from one tainting the others, two involving Judge
Steven Beathard and each involving Chief Justice
Maureen O’Connor, (hereinafter, the Chief
Justice), produced outcome-determinative due
process violations. Because Ohio does not provide
for independent review of its Supreme Court
Chief Justice’s actions, animus, or bias, acting as
sole trier of fact in applying Ohio law of
automatic judicial disqualification, or in reviewing
appeals to the Ohio Supreme Court featuring
constitutional questions, the only avenue to
remedy is in Federal Courts which have rejected
jurisdiction. Judge Beathard denied due process
by, (1.) granting summary judgment against the

5

Petitioner when well-evidenced perjured
documents and material facts were still in
dispute. (2.) refusing to comply with Ohio law
when conditions automatically triggered his
disqualification. (3.) acting in a case after it was
removed and joined to a suit in Federal Court.
The Chief Justice denied due process by,
(1.) denying the existence of the Petitioner’s
material claims, determinative under case law
which she cited to justify not enforcing automatic
judicial disqualification. (2.) acting in a case after
it was removed and joined to Federal Court. (3.),
rejecting an appeal based upon 42 U.S.C. Section
1983, while the Ohio Constitution requires the
Ohio Supreme Court to hear all appeals
concerning constitutional questions.
The Petitioner filed a ‘CLASS OF ONE’
Complaint in the District under 42 U.S.C. Section

6

1983 and 28 U.S.C. Section 1367, seeking
prospective declaratory and equitable relief
without seeking personal liability for punitive or
money damages against either Judge. Judge
Beathard pled absolute judicial immunity and the
Chief Justice pled Rooker-Feldman preclusion as
defenses. The District dismissed the case against
both defendants and all motions to join and
consolidate under Rooker-Feldman preclusion.
III. Appeal to the U.S. Sixth Circuit Court.
Appealing to the 6th with motions to
enforce the joining and consolidation of like cases
and to void ab initio lower Court actions taken
after case removal and joinder under FRCP Rule
42(a.), the 6th ruled against the removal, joinder,
& consolidation of like cases, citing 28 U.S.C.
144l(a.), without addressing state Court actions

7

taken without jurisdiction. It side-stepped the
District’s decision based on Rooker-Feldman to
uphold the District’s dismissal based on “absolute
judicial immunity” for both judges, citing Mireles
v. Waco and Brookings v. Clunk.

REASONS FOR GRANTING CERTIORARI
I. Conflicting Interpretations and
Applications of Law At Issue Undermine
Judicial Normalcy, and, the Authority and
Legitimacy of Superior Courts and the U.S.
Congress.
A. Mireles v. Waco Predicates Absolute
Immunity Upon A Liability Suit For Damages,
But The 6th Extends It To All Suits.
In its decision, the 6th stated, [“A Judge
performing his or her judicial functions is

8

entitled to absolute immunity. See generally
Mireles v. Waco, 502 US 9 (1991) (per curiam).”]
In McAlester v. Brown, 469 F.2d 1280 (5th Cir.
1972), the Court opined, “That judicial immunity
is sometimes used as an offensive dagger rather
than a defensive shield must not justify
derogating its inviolability. Even though there
may be an occasional diabolical or venal judicial
act, the independence of the judiciary must not
be sacrificed one microscopic portion of a
millimeter, lest the fears of section 1983
intrusions cow the judge from his duty.”
‘The essence of judicial immunity law is
to ensure that a judge can perform his duties
“without apprehension of personal consequences
to himself.”’ Bradley v. Fisher, 13 Wall. 335
(1872). The character of “personal consequences”
was distinguished as immunity from “liability for

9

damages” in Forester u White, 484 U.S. 219 (1988),
and Pierson v. Ray, 386 U.S. 547 1967). In Mireles
v. Waco, 502 U.S. 9 (1991), the Court further
qualified that immunity, stating, [“Respondent
Waco, ..., filed this action 42 U.S.C. § 1983, seeking damages-], PAR. 1, Line 1, and, begins
its Per Curiam', stating, [“A long line of ‘This
Courf's precedents acknowledges that, -generally-,
a judge is immune from a suit for -money
damages-..., at 10, PAR 1, Line 2.], summarizing
this principle when citing, [..’’.the essence of
absolute immunity is its possessor's entitlement
not to have to answer for his conduct in a civil
damages action,” Mitchell v. Forsyth, 472 U.S. 511,
525, 105 S.Ct. 2806, 86 L.Ed.2d 411.] Thereby,
the Mireles Court established caveats to judicial
immunity, stating, “The Court, however, has

10

recognized that a judge is not absolutely immune
from ... a suit for prospective injunctive relief,”
Pulliam v. Allen, 466 U.S. 522. 536-543 (1983), Id
at 10, and, “A state Court judge does not have
absolute immunity from a damages suit under §
1983...,” citing Forrester v. White, 484 U.S. 219
(1988), and, “Petitioner is not absolutely immune
from suit for damages arising out of his allegedly
unconstitutional conduct...,” again citing Mitchell,
while adding, “Like other forms of official
immunity, judicial immunity is an immunity from
suit, not just from ultimate assessment of
damages,” and, “Qualified immunity, similar to
absolute immunity, is an entitlement not to stand
trial under (certain circumstances).” Here, the
Mitchell Court axiomatically predicated an
“ultimate assessment of damages” upon a suit for

11

damages. The Petitioner seeks the prospective
injunctive relief of permitting his Complaint to go
forward which imposes no liability for punitive or
monetary damages upon a Judge. With no claim
for damages at issue in the Petitioner’s
Complaint, there is no suit for damages and no
subsequent cause for a Judge to stand trial for
liability to damages, and no resulting trigger to
absolute judicial immunity, in other Circuits.
Hence, the Judges lose nothing even if he/
she makes no defense. Further, a favorable
outcome of having the Complaint adjudicated in
Federal Court, should the Complaint go forward,
while possibly informing the Judge, neither taxes
or penalizes the judge. The 5th and 6th Circuits’
holdings would transform judicial immunity into
judicial autonomy, thus exemplifying the disparity
between them and other Courts which impose

12

standards upon judicial immunity. The 6th
erroneously ignored these distinctions and laws in
ruling that absolute judicial immunity adhered to
this suit. In conflating a suit for declaratory
relief with a suit for damages, the 6th boldly
defies This Court’s jurisprudence.
B. The 6th Wrongly Predicates
Absolutely Immunity Upon Jurisdiction Alone.
In citing Brookings v. Clunk, 389 F.3d
614, 617 (6th Cir. 2004), the 6th splits with
other Courts by applying absolute judicial
immunity to suits contingent upon jurisdiction
alone. Citing Mireles, “Absolute judicial immunity
can be overcome only where: (1) the judge acted
in a non-judicial capacity: or (2) the judge acted
in the complete absence of jurisdiction,” Id. at
11-12,” without more, the 6th presumed

13

‘absolute judicial immunity’ irrespective of the
suit’s character. While Mireles, Mitchell, and the
Courts they cited indicated that jurisdictional
disputes in overcoming absolute judicial immunity
arises after immunity is otherwise established,
the 6th dissected the necessary trigger, a liability
suit for damages, from all suits.
Erroneously, the 6th effectively
predicates judicial immunity upon jurisdiction
alone, stating, the Petitioner “has failed to allege
facts showing that the defendants acted in a non­
judicial capacity or in the complete absence of
jurisdiction.” While not the proper ‘pre-qualifier,’
this attribution is erroneous. The Petitioner
claimed that enforcing automatic judicial
disqualification, per Ohio Judicial Code, is an
administrative action to which judicial immunity
does not apply. As stated in Davis v. Burris, Ariz.

14

220, 75 P.2d 689 (1938), “A judge must be
acting within his jurisdiction as to subject matter
and person, to be entitled to immunity from civil
action for his acts.” Petitioner claims that Ohio
law divested the Defendants of jurisdiction over
the Petitioner and his Complaint when conditions
triggered their automatic disqualification, and,
that the defendants’ actions in suits joined to the
Petitioner’s Complaint in Federal Court were
without jurisdiction. Further, “When a judge
knows that he lacks jurisdiction, or acts in the
face of clearly valid statutes expressly depriving
him of jurisdiction, judicial immunity is lost.”
Rankin v. Howard, (1980) 633 F.2d 844, cert den.
Zeller v. Rankin, 101 S.Ct. 2020, 451 U.S. 939,
68 L.Ed 2d 326.
‘This Court’ stated in Stump v. Sparkman,
435 U.S. at 356, ..’’.absolute immunity does not

15

apply when a judge acts "in the clear absence of
all jurisdiction,” and the Bradley Court stated, “a
judge is not immune for actions, though judicial
in nature, taken in the complete absence of all
jurisdiction.” Id., at 356-357. The Forester Court
held, “Truly judicial acts ... must be distinguished
from the administrative, ... or executive functions
that judges may occasionally be assigned by law
to perform.” Page 484 U. S. 220. Though not
dispositive to the greater Section 1983 issues
hereto, the question of whether Ohio law, in
concert with Federal law, automatically divested
the judges of jurisdiction remains unanswered.
The 6th said, “whenever an action taken by
a judge is not an adjudication between the
parties, it is less likely that it will be deemed
judicial.” Cameron v. Seitz, 38 F.3d 264, 271 (6th
Cir. 1994). As judicial disqualification is not an

16

action between the parties to the Petitioner’s
suits, it is “(un)likely” judicial, and dispositive
issues of jurisdiction and judicial immunity -as
pled- have not been adjudicated in this case.
C. The 6th Erroneously Applies 28
U.S.C. 1441(a.) To Restrict Plaintiff Rights
Under FRCP Rule 42(a.) & 28 U.S. Code §1367
The Petitioner removed like cases from
state Court to enjoin & consolidate them under
FRCP Rule 42(a.). Defendants opposed claiming
that 28 U.S.C. 1441(a.) prohibited plaintiffs from
so removing to join. Petitioner pled that 1441(a.)
speaks affirmatively to defendants’ rights only,
without speaking restrictively to plaintiffs’ rights.
Before ruling on the Appeal, the 6th denied all
motions to remove, join, & consolidate like cases,
citing 1441(a.), without addressing Petitioner
rights under 28 U.S. Code §1367 and 28 U.S.C.

17

1446(d) violation claims, leaving judicial actions
taken without jurisdiction, thereunder, in limbo.
D.

The Lower Courts Unconstitutionally

Apply Rooker-Feldman To Suppress Violation
Of Due Process Claims.
Petitioner claimed pre-deprivation denial of
procedural due process and pled that RookerFeldman does “not apply to challenges of the
legal conclusions found in the state Court action
if there is no challenge to the state Court
judgment, and, that clear violations of federal
regulations lend themselves to attacks on legal
conclusions found by a state Court without
attacking the underlying judgment itself.” Exxon
Mobil v. Saudi Basic Industries., 544 U.S. 280
(2005). The 6th silently side-stepped the District’s

18

dismissal upon Rooker-Feldman preclusion. Yet,
in Van Hoven v. Buckles & Buckles, P.L.C., 947 F.
3d 889, 892 (6th Cir. 2020), it noted that RookerFeldman “applies only when a state Court ...
‘investigates, declares, and enforces liabilities’ ...”
Id. at 892], and, “Rooker-Feldman does not apply
to ‘ministerial’ actions.” Petitioner claims that
enforcing automatic judicial disqualification is
ministerial, prospective, not involving liabilities,
and makes no positive demands on a judge.
The District erroneously asserts that the
Petitioner only seeks to overturn state Court
judgements. Yet, there was no judgment on a
conflict between parties to the subject suits to
satisfy the 6th’s criterion. The Complaint is about
prejudiced denial of material process, alleging
that subject claims were not meaningfully heard

19

and prospectively seeks to have those claims be
heard by an unbiased trier of fact which imposes
no burden upon the defendants. Hence, there is
no material judgment to reverse at issue to
invoke Rooker-Feldman.
E.

The Laws As Applied Converge To

Create Constitutional Deprivations.
Petitioner pled convergences of judicial
immunity, Rooker-Feldman Doctrine, and 28
U.S.C. Section 1257 are unconstitutional by now
combining to violate the 1st, 5th, and 14th
Amendments’ respective Petition, Due Process,
and Equal Protection Clauses. With no state
remedy to a biased Chief Justice acting as sole
trier of fact denying constitutional rights, or, to
other State Courts’ of last resort constitutional
deprivations, without adequate remedy in lower

20

Federal Court, and, with statistical preclusion to
remedy in the U.S. Supreme Court, the Petition
Clause’ of the First Amendment is abridged.
“(T)he opportunity to be heard “must be granted
at a meaningful time and in a meaningful
manner.

9999

Armstrong u. Manzo, 380 U.S. 545

(1965). Heritage Foundation statistics reveal,
proportionately, 99.99% of complainants are
barred from having state induced constitutional
abuse claims be meaningfully heard in the only
Court available. To be meaningful, a petition to
be heard must have an impartial, 50/50, chance
of being accepted and adjudicated. As Congress
did not provide for an ever-increasing number of
appeals of State Courts’ of last resort
constitutional abuses to be heard somewhere,
when it barred lower Federal Courts from

21

hearing them and enacted 28 U.S.C. Section
1257, the afore-cited laws combine with
unconstitutional preclusion to Federal Court
remedy 99.99%, a practical entirety, of the time.
When 99.99% of complaints with standing
are legislatively precluded from being adjudicated,
proportionately per category, without changing
the Constitution, the right to ‘meaningfully
petition’ and to be ‘meaningfully heard’ is denied.
F. The 6th’s Decision Is Precedent For
Absolute Judicial Autonomy From Any Other
Legal Authority, Empowering Absolute
Judicial Tyranny To Metastasize If Unchecked.
The 6th’s construction of judicial
immunity compounds this legislated deprivation
of rights, creating ‘absolute’ judicial autonomy
that would bar any Court from hearing any

22

Complaint against any action by any other judge
with original jurisdiction, promoting judicial
tyranny in every Court. If let to stand, any other
Court could cite this Case to justify granting
non-reviewable absolute immunity to any judicial
act, however heinous, based on jurisdiction alone.
G. The 6th’s Ruling Undermines the

i
!

Legitimacy of the U.S. Government.
Because Article III anticipated and

t

provided for Congress to expand the Courts as
needed, there’s no constitutional public purpose
for legislatively ‘abridging’ the Petition and Equal
Protection Clauses to remedy busy Courts. This
legislated preclusion fosters a public perception
that Congress and the Courts are at war with
the People and their constitutional rights,
thereby compromising public belief in the
legitimacy of the U.S. Government.

s

■;

i

24

justified if there were a significant
benefit. But, as it stands, the
extension of absolute immunity
serves none but the particularly
malicious.” Emory Law Journal
Volume 66, Issue 1., Ill A.
Considering all, heretofore, granting certiorari
would be a prospective measure to preserve the
sanctity of the U.S. Constitution, the legitimacy
of the U.S. Congress and the Courts, and should,
therefore, be granted.

Respectfully submitted,

Vernon Lee Havens II, pro se
May 08, 2020

